No.

In tIji

upreiuc Court at tije ttiiiteb 'tate

CHAZON QTA: QUANTITATIVE TRADING ARTISTS, LLC.,
and LAWRENCE I. FEJOKWU,
Applicants/Petitioners
V.

COMMODITY FUTURES TRADING COMMISSION,
Respondent.

PROOF OF SERVICE
I, Lawrence I. Fejokwu, hereby certify that all parties required by the Rules
of this Court to be served have been served. On this 6th day of May, 2019, a copy
of this Application for Extension of Time to File Petition for a Writ of Certiorari to
the United States Court of Appeals for the Third Circuit was mailed by United
States Postal Service Priority Mail, postage prepaid, to:
Solicitor General of the United States,
Room 5616,
Department of Justice,
950 Pennsylvania Ave., N.W.,
Washington, D. C. 20530-0001.
/s/ Lawrence I. Fejokwu
LAWRENCE I. FEJOKWU
Pro Se
CHAZON QTA:
QUANTITATIVE TRADING
ARTISTS, LLC
6905 Bellevue Avenue
Second Floor
Guttenberg, NJ 07093
(212) 202-0290
Law-Fej@ChazonQTA.com
May 6, 2019
A

